OIG Audit Report 09-18
Offices, Boards and Divisions Annual Financial Statement - Fiscal Year 2008
Audit Report 09-18
March 2009
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement of the Offices, Boards and Divisions (OBDs) for the fiscal years (FY) ended September 30, 2008, and September 30, 2007.  Under the direction of the Office of the Inspector General (OIG), KPMG LLP performed the OBDs audit.  The audit resulted in an unqualified opinion on the FY 2008 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of the entitys operations in conformity with U.S. generally accepted accounting principles.  For FY 2007, the OBDs also received an unqualified opinion on its financial statements (OIG Report No. 08-17).
KPMG LLP also issued reports on internal control over financial reporting and on compliance and other matters.  For FY 2008, the Independent Auditors Report on Internal Control Over Financial Reporting identified one significant deficiency, which was previously reported in FY 2007.  The significant deficiency relates to weaknesses in the preparation, review, and approval controls over journal entries.  No instances of non-compliance with laws and regulations or other matters were identified during the audit for the OBDs in FY 2008.
The OIG reviewed KPMG LLPs reports and related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit in accordance with U.S. generally accepted government auditing standards, was not intended to enable us to express, and we do not express, an opinion on the OBDs financial statements, conclusions about the effectiveness of internal control, conclusions on whether the OBDs financial management systems substantially complied with the Federal Financial Management Improvement Act of 1996, or conclusions on compliance with laws and regulations.  KPMG LLP is responsible for the attached auditors reports dated November 6, 2008, and the conclusions expressed in the reports.  However, our review disclosed no instances where KPMG LLP did not comply, in all material respects, with U.S. generally accepted government auditing standards.
Return to OIG Home Page